        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Commonwealth of Puerto Rico
Energy Affairs Administration –
Energy Efficiency and Conservation
Block Grant Program Funds
Provided by the American Recovery
and Reinvestment Act of 2009




OAS-RA-13-27                        July 2013
                                 Department of Energy
                                   Washington, DC 20585
                                         July 15, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                   Rickey R. Hass
                        Deputy Inspector General
                          for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "Commonwealth of Puerto
                        Rico Energy Affairs Administration – Energy Efficiency and
                        Conservation Block Grant Program Funds Provided by the American
                        Recovery and Reinvestment Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Commonwealth of Puerto Rico
Energy Affairs Administration's (Agency) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Energy Efficiency and Conservation Block Grant
(EECBG) Program. The Office of Inspector General contracted with an independent certified
public accounting firm, Lopez and Company, LLP, to express an opinion on the Agency's
compliance with Federal and Commonwealth of Puerto Rico laws, regulations and program
guidelines applicable to the EECBG Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The Agency received a $9.6 million formula EECBG grant award that
was to be expended over a 3-year period from September 21, 2009 through September 20, 2012.
The Agency requested and received an extension of its grant to March 31, 2013.

RESULTS OF EXAMINATION

Lopez and Company, LLP, expressed the opinion that except for the significant deficiencies
described in its report, the Agency complied in all material respects with the aforementioned
requirements and guidelines relative to the EECBG Program for the period September 21, 2009
through December 31, 2011.

Specifically, the Agency did not know the status of and had not maintained supporting
documentation for four cash advances totaling $449,000 to ensure funds were used for allowable
                                                 2


costs. While the Agency ultimately provided the supporting documentation after multiple
requests and over a year later, Lopez and Company, LLP, found two of the four sub-grantees had
not expended funds totaling $367,116 within 3 days as required by Federal regulations. Further,
based on a review of two Agency quarterly job reports, Lopez and Company, LLP, found that the
documentation maintained for one quarter did not agree with the Agency's report and for another
quarter, the support did not contain information on all sub-grantees needed to conclude on the
accuracy of the report.

The report also included an advisory comment that represents a control deficiency that came to
Lopez and Company, LLP's attention that was not significant enough to adversely affect the
Agency's ability to record, process, summarize and report data reliably. Specifically, the Agency
could not support the estimates used to allocate $242,258 of administrative labor costs charged to
the EECBG grant. Advisory comments are offered to Agency management as an opportunity for
improvement.

The report made recommendations to the Agency to improve the administration of its EECBG
Program. The Agency provided comments that generally did not agree with the findings and did
not specifically respond to the recommendations. As such, the Department of Energy
(Department) needs to pursue with the Agency, the matters discussed in the report and its plans
to improve administration of its EECBG Program.

RECOMMENDATION

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy:

     • Require the Agency to improve the administration of its EECBG Program by ensuring
       the Agency implements the recommendations outlined in the report.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department expressed concurrence with our recommendation and with Lopez and Company,
LLP's report findings and recommendations. The Department stated it was working with the
Agency to ensure all corrective actions are resolved during the grant closeout process. The
Department requested detailed support to substantiate the administrative costs and noted it would
ensure sub-recipient monitoring policies and procedures were appropriately applied. In addition,
the Department would ensure that job reporting data for prior quarters are recalculated to reflect
complete information and assist the Agency in adjusting prior reports, if necessary.

The Department's comments were responsive to our recommendation.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants, as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
                                               3


Agency's policies and procedures and reviewing applicable Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests,
and compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.

The Office of Inspector General monitored the progress of the examination and reviewed the
report and related documentation. Our review disclosed no instances in which Lopez and
Company, LLP, did not comply, in all material respects, with the attestation requirements.
Lopez and Company, LLP, is responsible for the attached report dated April 18, 2013, and the
conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                                             Attachment 1




          EXAMINATION REPORT ON COMPLIANCE

                                OF

Recovery Act Energy Efficiency and Conservation Block Grant Program

   Commonwealth of Puerto Rico – Energy Affairs Administration

                               ____

                        PERFORMED FOR

                U.S. DEPARTMENT OF ENERGY
               OFFICE OF INSPECTOR GENERAL



                           Prepared by

                     Lopez and Company, LLP

                    Report Date: April 18, 2013


              CONTRACT NUMBER: DE-IG0000017

               WORK ORDER NUMBER: 2011-07
                                                                                                  Attachment 1 (continued)




                                                     Table of Contents



INDEPENDENT ACCOUNTANT'S REPORT ......................................................................... 1

Section I Description of the Commonwealth of Puerto Rico Energy Affairs Administration ..... 2

Section II Classification of Findings.............................................................................................. 3

Section III Summary of Findings ................................................................................................... 4

Section IV Schedule of Findings ................................................................................................... 5

Section V Management Comments ..............................................................................................11
                                                                             Attachment 1 (continued)




                   INDEPENDENT ACCOUNTANT'S REPORT

To the Inspector General,
Department of Energy:

We have examined the Commonwealth of Puerto Rico Energy Affairs Administration's (Agency)
compliance with Federal and Commonwealth of Puerto Rico laws, regulations, and program
guidelines applicable to the American Recovery and Reinvestment Act of 2009 (Recovery Act)
Energy Efficiency and Conservation Block Grant (EECBG) Program for the period of September 21,
2009 through December 31, 2011. The Agency is responsible for administering the EECBG
Program for the Commonwealth of Puerto Rico, in compliance with these laws, regulations, and
program guidelines. Our responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability Office;
and, accordingly, included examining, on a test basis, evidence supporting management's compliance
with relevant EECBG Program Federal and Commonwealth laws, regulations, and program
guidelines; and performing other procedures, as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion. Our examination does not
provide a legal determination on the Agency's compliance with specified requirements.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control structure or
financial management system may become inadequate because of changes in conditions or that the
degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, the Agency
complied in all material respects with the aforementioned requirements and guidelines relative to the
EECBG Program for the period September 21, 2009 through December 31, 2011. Our report
includes an advisory comment that represents a control deficiency that came to our attention that was
not significant enough to adversely affect the Agency's ability to record, process, summarize and
report data reliably; advisory comments are offered to Agency management as an opportunity for
improvement.




Lopez and Company, LLP
Chino Hills, California
April 18, 2013



                                     Page 1                             Lopez and Company, LLP
                                                                        Attachment 1 (continued)

  Section I Description of the Commonwealth of Puerto Rico Energy Affairs
                                Administration

The Energy Affairs Administration (Agency) is dedicated to ensuring a sustainable energy future
for the citizens of the Commonwealth of Puerto Rico (Commonwealth). The Agency works to
increase energy efficiency, promote and increase the use of renewable energy and alternative
fuels, along with serving as the principal source of information for these energy areas throughout
the Commonwealth.

Under the Energy Efficiency and Conservation Block Grant (EECBG) Program, grantees receive
assistance in developing, promoting, implementing and managing energy efficiency and
conservation projects and programs. These projects and programs are designed to reduce fossil
fuel emissions, reduce total energy use of the eligible entities, and improve energy efficiency in
the transportation, building, and other appropriate sectors. As part of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), the U.S. Department of Energy's (Department)
Office of Energy Efficiency and Renewable Energy received $3.2 billion in EECBG Program
funding. Of this amount, $2.7 billion was awarded through formula grants and $454 million was
allocated through competitive grants.

The Agency received a $9.6 million formula EECBG grant award, which was to be expended
over a 3-year period from September 21, 2009 through September 20, 2012. It allocated these
funds to 38 municipalities, 3 governmental agencies, and various community-based
organizations to reduce energy usage at buildings and facilities owned by governmental and
community based organizations. The Agency requested and received an extension of its grant to
March 31, 2013.




                                   Page 2                          Lopez and Company, LLP
                                                                          Attachment 1 (continued)

                          Section II Classification of Findings

Material Weakness

For purposes of this engagement, a material weakness is a significant deficiency or combination
of significant deficiencies that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected.
Significant Deficiency

For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
record, process, or report data reliably in accordance with the applicable criteria or framework,
such that there is more than a remote likelihood that a misstatement of the subject matter that is
more than inconsequential will not be prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Agency's ability to record, process, summarize, and
report data reliably.

Advisory comments presented, if any, represent matters that came to our attention during the
course of the review, and are offered to the Agency's management as an opportunity for
improvement. The advisory comments are provided along with recommendations and discussion
of the significance of the comments.




                                   Page 3                            Lopez and Company, LLP
                                                                    Attachment 1 (continued)

                           Section III Summary of Findings



Area/Finding


      Significant Deficiencies

Grants Management

      IV.1     Oversight over Cash Advances to Sub-Grantees

Financial Management and Reporting

      IV.2     Reporting of Jobs Created/Retained Lacks Sub-Grantee Information

      Advisory Comment

Allowable Costs

      IV.3     Lack of Documentation in Support of Administrative Charges




                                 Page 4                         Lopez and Company, LLP
                                                                       Attachment 1 (continued)

                            Section IV Schedule of Findings

Grants Management

IV.1    Oversight over Cash Advances to Sub-Grantees (Significant Deficiency)

Condition

During our review of 20 Agency cash drawdowns from the U.S. Department of the Treasury and
related disbursements to sub-grantees, we noted the Agency did not know the status of and had
not maintained supporting documentation for 4 cash advances totaling $449,000 to ensure funds
were used for allowable costs. After multiple requests and over a year later, the Agency
provided documentation supporting disbursements of the advanced funds for allowable costs.
However, we found 2 of the 4 sub-grantees had not expended funds totaling $367,116 within 3
days as required by Federal regulations, and instead held a majority of the funds for several
months. In fact, one sub-grantee received a cash advance totaling $280,000 in November 2011
that was not fully disbursed until July 2012, or 254 days later. The second sub-grantee received
an advance of $87,116 in October 2011 that was not fully disbursed until April 2012, or 123 days
later.
EECBG Program Guidance 10-013, regarding cash advances, requires grantees and sub-grantees
to minimize the time elapsed between the transfer of the funds and their disbursement. The
Program Guidance also notes that State grantees should not draw down funds unless they
anticipate disbursing the funds within 3 working days. Further, States must ensure that
sub‐grantees substantially conform to the same standards of timing for cash advances. In
addition, Federal regulations require grantees to "monitor the use of funds that are drawn down
for any advances to sub‐grantees." A review of the grant agreements between the Agency and its
sub-grantees notes each month the sub-grantee "must submit an explained draw down invoice
detailing the expenses incurred and paid with grant funds for the approved project."
Additionally, Office of Management and Budget (OMB) Circular A-87 Cost Principles for State,
Local and Indian Tribal Governments requires grant recipients to maintain adequate expenditure
documentation so allowability of such costs can be determined.

Cause

Although the Agency ultimately provided the supporting documentation for the four advances,
the Agency had not provided sufficient oversight of its sub-grantees for compliance with Federal
requirements involving advances because it had not established an adequate sub-grantee
monitoring program. Specifically, we examined Agency files for 20 of its 48 sub-grantees, and
found that while the files did contain initial grant documents such as budgets and points of
contact information, 70 percent of the files examined had no indication of what, if any, Agency
monitoring had occurred, such as progress reports from the sub-grantees on projects. During
discussions with the Program Manager, he asserted that he had communicated with sub-grantees
through telephone calls and had made site visits to some of the grants; however, there was no
evidence in the files and he could not produce documentation to substantiate this assertion.

                                  Page 5                          Lopez and Company, LLP
                                                                       Attachment 1 (continued)

                       Section IV Schedule of Findings (Cont.)
Further, the Agency may not have sufficient resources assigned to the program to ensure
adequate monitoring. The Program Manager noted he was the only full-time person assigned to
the Program even though the Agency's monitoring policies and procedures clearly noted roles
and responsibilities of other personnel as part of the Program. The Program Manager further
indicated he could utilize staff from other programs when needed but we saw no evidence such
personnel had been used for EECBG sub-grantee monitoring activities.

EECBG Program Guidance 10-07 requires each grantee to develop its own sub-grantee
monitoring process. The Agency's Operational Policies and Procedures manual formalized the
sub-grantee monitoring program. The manual required the Agency to conduct on-site and desk
monitoring and that files contain all data applicable to the sub-grantees including written and
verbal communications, desk monitoring results, site inspection reports, and monthly/quarterly
reports used to report the status of each sub-grant to the Department of Energy.

Effect

Without an adequate monitoring program, the nearly $7.4 million allocated to the sub-grantees
and in particular, cash advances, may subject those funds to fraud, waste, and abuse.

Recommendation

We recommend the Agency:

1.1   Review the allocation of resources to the EECBG Program to ensure the Agency is
      sufficiently monitoring sub-grantees in accordance with Federal requirements and its own
      policies and procedures.

Management Response

The Agency partially concurred with the finding. They did agree that for certain sub-grantees a
portion of the funds was not expended within the required period, however, they disagreed that
the Agency had failed to adequately monitor the funds allocated to the sub-grantees. They noted
that the Agency had developed a monitoring guide, formalized through its Operational Policies
and Procedures Manual, which provided a framework for monitoring activities of Federal funds.
They stated that the Program Manager had established these monitoring activities through
electronic methods, which created a record according to the manual.

Auditor Response

The Agency's comments were generally responsive to the finding and recommendation. We
acknowledged in the report that the Agency had documented a sub-grantee monitoring program
through its policies and procedures; however, we noted there was little evidence (written or
electronic) provided by the Program Manager to document that such a program had been
adequately implemented.

                                  Page 6                           Lopez and Company, LLP
                                                                        Attachment 1 (continued)

                        Section IV Schedule of Findings (Cont.)
Financial Management and Reporting

IV.2     Reporting of Jobs Created/Retained Lacks Sub-Grantee Information (Significant
         Deficiency)

Condition

During our review of two Agency quarterly job reports, we noted the supporting documentation
maintained for one quarter either did not agree with the Agency's report or was incomplete. For
the quarter ending December 31, 2011, we found the Agency had only reported jobs based on its
own staff and omitted to report the job data from its sub-grantees even though the Agency had
received such data. Additionally, for the other quarter we reviewed, the supporting
documentation was not complete for us to determine the accuracy of the reported job figure.
Specifically, in the quarter ending September 30, 2011, the Agency only had documentation
showing 23 of its 48 sub-grantees had been compiled.

The Agency is required by OMB Guidance M-10-08 to ensure timely, complete, and effective
reporting under Section 1512 of the Recovery Act. Further, EECBG Program Guidance 10-07C
notes job reports are due on the 10th day after the quarter, and from the 11th thru the 21st day,
recipients can correct significant reporting errors or omissions. From the 33rd thru 75th day,
corrections can be made during what is known as a continuous quality assurance (QA) period.

Cause

The Agency was aware that its reporting was not initially complete or effective but failed to use
the correction period available for amending its reports. For the September 30, 2011 report, the
Program Manager offered no explanation why the remaining 24 sub-grantees had not been
included in the documentation. In January 2012, the Program Manager told us he intended to
correct the reporting deficiencies in the December 31, 2011 report; however, a review of the
report on the Recovery Act job reporting website in February 2013 revealed no corrections had
been made.

Effect

The failure to ensure accurate reporting increases the risk that the numbers reported may contain
inaccuracies that will go undetected. Because one of the goals of the Recovery Act is job
creation, a failure to ensure accurate reporting of such jobs could lead to erroneous conclusions
on the performance of the Recovery Act.




                                   Page 7                           Lopez and Company, LLP
                                                                        Attachment 1 (continued)

                       Section IV Schedule of Findings (Cont.)
Recommendations

We recommend the Agency:

2.1    Ensure job reporting data for prior quarters are recalculated to reflect complete
       information from sub-recipients, and if applicable, submit corrected data for those
       periods.

Management Response

Agency officials did not concur with the finding. They noted that the report reveals that the
information reported in its required ARRA reports coincides with the Agency's internal records,
and they believe both quarters cited in the report were reported accurately and are supported.

Auditor Response

The Agency's comments were not responsive to our finding and recommendation. We agree the
Agency filed those reports using the records in its possession. However, as noted in the report,
our conclusion was that the documentation maintained for one quarter did not agree with the
Agency's report. For the other quarter, the support did not contain information for all sub-
grantees, therefore, we were unable to conclude on the accuracy of the figure.




                                  Page 8                           Lopez and Company, LLP
                                                                         Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
Allowable Costs

IV.3     Lack of Documentation in Support of Administrative Charges (Advisory
         Comment)

Condition

The Agency could not support the estimates used to allocate $242,258 of administrative labor
costs charged to the EECBG grant. The Agency allocated administrative personnel costs to the
EECBG Program using estimates assigned to individual staff positions. The Agency was unable
to provide adequate documentation, such as timesheets using EECBG project codes to
demonstrate actual hours incurred or time studies, to support the estimated percentage of time
expended by individuals assigned to the EECBG grant.

OMB Circular A-87 Attachment A (C1j) states, "To be allowable under Federal awards, costs
must meet the following general criteria: Be adequately documented." In addition, the Agency's
policies and procedures state that allowable costs should be adequately documented.

Cause

The Agency stated it was acceptable to estimate the percentage of time administrative employees
would incur on the EECBG award because those estimated rates had received approval from the
Department of Energy. The Agency was not aware that it needed to justify those estimates with
some level of support.

Effect

The inability of the Agency to support estimates used in the allocation of administrative costs
could result in inappropriate costs being charged to the EECBG Program.

Recommendation

3.1      We recommend the Agency review and comply with Federal regulations and its own
         policies and procedures to adequately support administrative labor costs charged to the
         EECBG Program.

Management Response

The Agency partially concurred with the finding. Officials did agree that time records should
provide adequate documentation to demonstrate actual hours incurred and charged to the
EECBG Program, however, they did not agree that the inability to support the estimates could
result in inappropriate costs being charged to the EECBG Program, as stated in the report. The
actual hours charged are documented in the analysis/estimates prepared as part of the budget
process.

                                    Page 9                          Lopez and Company, LLP
                                                                        Attachment 1 (continued)

                       Section IV Schedule of Findings (Cont.)
Auditor Response

The Agency's comments were not responsive to our finding and recommendation. As indicated
in the report and in the draft report response, the Agency had previously provided an estimate of
time charges by employee to the EECBG Program; however, it was unable to demonstrate how
those estimates were developed (time studies, task allocations, etc.) as required by OMB A-87.
Further, the Agency could not provide actual time, through payroll records, that was charged to
the grant because officials were not tracking hours separately. In addition, documentation
provided later in the audit supported administrative costs that were significantly less than what
had already been reimbursed by the Department of Energy. As a result, the risk of inappropriate
costs being charged to the EECBG Program still exists.




                                 Page 10                           Lopez and Company, LLP
                            Attachment 1 (continued)

SECTION V Management Comments




     Page 11             Lopez and Company, LLP
                                 Attachment 1 (continued)

SECTION V Management Comments (Cont.)




        Page 12               Lopez and Company, LLP
                                 Attachment 1 (continued)

SECTION V Management Comments (Cont.)




        Page 13               Lopez and Company, LLP
                                    Attachment 2

DEPARTMENT COMMENTS




 Page 14              Lopez and Company, LLP
              Attachment 2 (continued)




Page 15   Lopez and Company, LLP
              Attachment 2 (continued)




Page 16   Lopez and Company, LLP
                                                                 IG Report No. OAS-RA-13-27


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                                 Date

Telephone                                            Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
